No. ______
In the

Supreme Court of the United States
__________________
JUDSON A. LOVINGOOD,
Petitioner,
v.
DISCOVERY COMMUNICATIONS, INC., et al.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
STEPHEN D. HENINGER
Counsel of Record
HENINGER GARRISON DAVIS, LLC
2224 1st Avenue North
Birmingham, Alabama 35203
(205) 326-3336
steve@hgdlawfirm.com
Counsel for Petitioner

April 20, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
In N.Y. Times Co. v. Sullivan, 376 U.S. 254 (1964)
this Court announced that in defamation cases
involving a public official/public figure, the Plaintiff
must present clear and convincing evidence that the
false, defamatory statements were made with actual
malice. This standard has been further explained to
be: “There must be sufficient evidence to permit the
conclusion that the Defendant in fact entertained
serious doubts as to the truth of his publication,” St.
Amant v. Thompson, 390 U.S. 727, 731 (1968), or that
he acted with a “high degree of awareness of . . .
probable falsity,” Garrison v. Louisiana, 379 U.S. 64,
74 (1964). However, N.Y. Times did not address
whether First Amendment protection is given to a
Defendant who publishes and alters prior sworn
testimony in a defamatory manner for entertainment
purposes. Thus the questions presented are:
1. Whether the publication of totally false and
fabricated testimony of a public official testifying
under oath to produce an entertaining, dramatic
effect in a movie is “speech that matters” and
deserves elevated protection by the N.Y. Times
standard requiring actual malice rather than
treating all sworn witnesses the same?
2. Whether defamation actions regarding false
publishing of the sworn testimony of a witness
should require proof of actual malice if the
witness is a public official rather than
recognizing there is no appropriate distinction in
the identity of the witness under such
circumstances?

ii
3. Whether sufficient evidence of willful blindness
may be used to satisfy the requirement of actual
malice in a defamation action involving the
fabrication/alteration of actual sworn testimony?

iii
PARTIES TO THE PROCEEDING
Petitioner Judson Lovingood, was the Plaintiff and
Appellant in the proceedings below.
Respondents Discovery Communications, Inc. and
Discovery Communications, LLC. were the Defendants
and Appellees below.

iv
CORPORATE DISCLOSURE STATEMENT
PURSUANT TO RULE 29.6
Discovery Communications Holdings, LLC is the
parent corporation of Discovery Communication, LLC.
Prior Defendants dismissed and not parties to this
proceeding were: British Broadcasting Company (BBC);
Kate Gartside, an individual citizen of Great Britain,
and The Open University in London.

v
RULE 14.1(b)(iii) STATEMENT
The proceedings in federal trial and appellate courts
identified below are directly related to the above
captioned case in this Court.
Judson Lovingood v. Discovery Communications,
Inc. and Discovery Communications, LLC, Civil Action
Number 5:14-CV-00684-MHH (N.D. Ala.). The
Northern District of Alabama entered summary
judgment for the Defendants in this matter and
disposing of the entire case after denying Plaintiff’s
Rule 59 Motion to Alter, Amend or Vacate the
Summary Judgment Order on July 9, 2018.
Judson Lovingood v. Discovery Communications,
Inc. and Discovery Communications, LLC: Case No. 1812999 (11th Cir.) The Eleventh Circuit entered
judgment affirming the trial court on February 7, 2020.

vi
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . iii
CORPORATE DISCLOSURE STATEMENT
PURSUANT TO RULE 29.6 . . . . . . . . . . . . . . . . . . iv
RULE 14.1(b)(iii) STATEMENT . . . . . . . . . . . . . . . . v
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . ix
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISION INVOLVED . . . . 1
REQUEST FOR PETITION FOR WRIT OF
CERTIORARI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION AND STATEMENT OF
THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . 12
I.

THE “WITNESS” IDENTITY SUPPLANTS
A “PUBLIC OFFICIAL” IDENTITY FOR
PURPOSES OF DEFAMATION ACTIONS
FABRICATING FALSE TESTIMONY. . . . . 12

II.

WILLFUL BLINDNESS SHOULD APPLY
TO DEFAMATION ACTIONS REQUIRING
ACTUAL MALICE . . . . . . . . . . . . . . . . . . . . 20

vii
III.

SEEKING TO INFLUENCE THE COURT
OF PUBLIC OPINION BY FALSELY
CREATING SWORN TESTIMONY THAT IS
ABSENT FROM THE READILY
AVAILABLE OFFICIAL TRANSCRIPT IS
INCOMPATIBLE WITH ENHANCED
FIRST AMENDMENT PROTECTION
INVOLVING A PUBLIC OFFICIAL
WITNESS . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(February 7, 2020) . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court for the Northern District of
Alabama Northeastern Division
(July 9, 2018) . . . . . . . . . . . . . . . App. 22
Appendix C Opinion in the United States District
Court for the Northern District of
Alabama Northeastern Division
(August 1, 2017) . . . . . . . . . . . . . App. 33
Appendix D Order in the United States District
Court for the Northern District of
Alabama Northeastern Division
(August 1, 2017) . . . . . . . . . . . . . App. 59

viii
Appendix E Opinion in the United States District
Court for the Northern District of
Alabama Northeastern Division
(September 30, 2015) . . . . . . . . . App. 60
Appendix F Appellant’s Brief on Appeal to the 11th
Circuit . . . . . . . . . . . . . . . . . . . . . App. 83
Appendix G Appellant’s Reply Brief on Appeal to
the 11th Circuit. . . . . . . . . . . . . App. 114

ix
TABLE OF AUTHORITIES
CASES
Briscoe v. Lahue,
460 U.S. 325 (1983). . . . . . . . . . . . . . . . . . . . 19, 20
Bullock v. Bank Champaign, N.A.,
569 U.S. 267 (2013). . . . . . . . . . . . . . . . . . . . . . . 22
Burns v. Reed,
500 U.S. 478 (1991). . . . . . . . . . . . . . . . . . . . . . . 19
Camreta v. Greene, 563 U.S. 692, 131 S.Ct. 2020,
179 L.Ed. 2d 1118 (2011) . . . . . . . . . . . . . . . . . . 17
Garrison v. Louisiana,
379 U.S. 64 (1964). . . . . . . . . . . . . . . . . . . . . . . . 25
Gentile v. State Bar of Nevada,
501 U.S. 1030 (1991). . . . . . . . . . . . . . . . . . . . . . 25
Gertz v. Robert Welch, Inc.,
418 U.S. 323 (1974). . . . . . . . . . . . . . . . . . . . 19, 24
Global Tech Appliances, Inc. v. SEB S.A.,
563 U.S. 754 (2011). . . . . . . . . . . . . . . . . . . . 21, 22
Johnston v. Harris County Flood Control District,
869 F.2d 1565 (5th Cir. 1989). . . . . . . . . . . . 14, 15
Kalina v. Fletcher,
522 U.S. 118 (1997). . . . . . . . . . . . . . . . . . . . 15, 18
Lane v. Franks,
573 U.S. 228, 134 S.Ct. 2369, 189 L.Ed. 312
(2014). . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 13, 14

x
McKee v. Cosby,
___ U.S. ___, 139 S.Ct. 675, 203 L.Ed. 2d 247
(2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
N.Y. Times Co. v. Sullivan,
376 U.S. 254 (1964). . . . . . . . . . . . 3, 17, 21, 22, 24
Nelson v. Lapeyrouse Grain Corp,
534 So.2d 1085 (Ala. 1988) . . . . . . . . . . . . . . . . . 17
Rodriguez de Quijas v. Shearson/Am. Express, Inc.,
490 U.S. 477 (1989). . . . . . . . . . . . . . . . . . . . 16, 17
Skakel v. Grace,
5 F.Supp.3d 199 (D.C. Conn. 2014) . . . . . . . . . . 26
Smith v. Wade,
461 U.S. 30 (1983). . . . . . . . . . . . . . . . . . . . . . . . 22
United States v. Alvarez,
567 U.S. 709 (2012). . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Dunnigan,
507 U.S. 87 (1993). . . . . . . . . . . . . . . . . . . . . . . . 27
CONSTITUTIONAL PROVISIONS
U.S. Const. Amend. I . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTE
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RULES
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

xi
OTHER AUTHORITIES
RICHARD P. FEYNMAN, “WHAT DO YOU CARE WHAT
OTHER PEOPLE THINK?”: FURTHER ADVENTURES
OF A CURIOUS CHARACTER, (W. W. Norton and
Company, 1988) . . . . . . . . . . . . . . . . . . . . . . . . . . 6

1
OPINIONS BELOW
The United States District Court for the Northern
District of Alabama, Northeastern Division, granting
summary judgment is reported at 275 F.Supp.3d 1301
(N.D. Ala. 2017). The decision of the United States
Court of Appeals for the Eleventh Circuit affirming the
District Court is reported at 2020 U.S. App. Lexis 3778
(2020).
JURISDICTION
The judgment of the Court of Appeals was entered
on February 7, 2020. The jurisdiction of this Court is
invoked under 28 U.S.C.§1254(1).
CONSTITUTIONAL PROVISION INVOLVED
U.S. Const. Amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
Government for a redress of grievances.
REQUEST FOR PETITION FOR WRIT OF
CERTIORARI
Petitioner Judson Lovingood (hereinafter
“Lovingood” or “Petitioner”) respectfully petitions for a
writ of certiorari to review the judgment of The United
States Court of Appeals for the Eleventh Circuit in the
case below which affirmed with opinion the Judgment
of the United States District Court for the Northern

2
District of Alabama, Northeastern Division and the
Eleventh Circuit Court of Appeals.
INTRODUCTION AND
STATEMENT OF THE CASE
This case involves the publication of sworn
testimony that was totally false and fabricated for
purported “dramatic effect” in a movie announced as a
“true story” regarding the Challenger space shuttle
explosion that took the lives of seven astronauts on
January 28, 1986. The Plaintiff below is Dr. Judson
Lovingood, a former deputy manager of the space
shuttle projects office at NASA’s Marshall Space Flight
Center in Huntsville, Alabama. Dr. Lovingood had
testified before the Presidential Commission convened
by President Reagan to investigate the cause of this
disaster and recommend corrective action. In 2012, the
Defendants, Discovery Communications, Inc. and
Discovery Communications, LLC (hereinafter
“Discovery”) and the British Broadcasting Company
(“BBC”) co-produced a made for TV movie titled “The
Challenger Disaster.” Discovery broadcasted the
United States version of the film on the Discovery
Channel and the Science Channel on November 16,
2013, with over 5 million viewers.
The film itself begins with the written declaration:
“This is a true story.” In the pivotal climax scene of this
film, Dr. Lovingood is shown and identified by name as
testifying before the presidential commission (shown
being sworn by oath) with a script that is totally
fabricated, fake and at dramatic odds from his actual
and recorded testimony. Dr. Lovingood was portrayed
as an active participant in an effort by NASA to

3
suppress the truth of calculated risks of the shuttle
program that led to this tragedy even though it
required the publisher to create false, sworn testimony
to lead the viewers to that desired impression. There is
no dispute that the movie put personal, sworn and false
testimony in the specifically represented mouth of Dr.
Lovingood that made it appear that he and NASA
management had recklessly ignored calculations of
failure probability that are now admitted never took
place. Indeed, the trial court conclude that the facts
showed: “It is undisputed that there never was such a
calculation, and Dr. Lovingood never gave such
testimony before the Presidential Commission . . . .
both scenes are fabrication . . . a jury potentially could
infer from the evidence that Discovery Channel
willfully avoided the opportunity . . . .” to know of this
false depiction. (App. 88). However, the trial court
granted the Defendants’ motion for summary judgment
finding that Dr. Lovingood was a public official and
there was insufficient evidence to meet the required
standard of “actual malice” under N.Y. Times Co. v.
Sullivan, 376 U.S. 254 (1964) and its progeny. (See,
Lovingood v. Discovery Communications, Inc., 275
F.Supp.3d 1301 (N.D. Ala. 2017)). The Eleventh Circuit
Court of Appeals affirmed that decision on similar
grounds. (See, Lovingood v. Discovery Communications,
Inc., 2020 U.S. App. Lexis 3778 (11th Cir. 2020)).
It is important that this Court understand the
established facts underlying this movie broadcast. The
movie begins with three rolling title cards in this order:
A) “This is a true story”

4
B) “Based on the book “What Do You Care What
Other People Think” by Richard and
Gweneth Feynman and Ralph Leighton and
interviews with key individuals.”
C) “Some scenes have been created for dramatic
purposes.”
There is no reference to the official, recorded and
available transcript of the Presidential Commission
and no evidence that it was ever reviewed. Yet, the
critical scene was spotlighted as specific and quoted
sworn testimony given by Dr. Lovingood before this
Commission.
In the book by Dr. Feynman, there is a scene that
takes place at the Marshall Space Flight Center where
Dr. Lovingood gave a private briefing to Dr. Feynman
(a Commission member) on the main engine of the
shuttle vehicle. The book describes this meeting with
Dr. Lovingood and three other engineers as follows:
“(Feynman) all right” I said, here’s a piece
of paper each. Please write on your paper
the answers to this question: What do you
think is the probability that a flight
would be uncompleted due to a failure in
this engine? They write down their
answers and hand in their papers. One
guy wrote 99.44% pure: (copying the Ivory
Soap slogan) measuring about 1 in 200.
Another guy wrote something very
technical and highly quantitative in the
standard statistical way, carefully
defining everything that I had to do to

5
translate – which also meant about 1 in
200. The third guy wrote, simply, “1 in
300” Mr. Lovingood’s paper, however,
said, cannot quantify quality control in
manufacturing, engineering judgment.
“Well,” I said, “I’ve got four answers and
one of them weaseled” I turned to Mr.
Lovingood: “I think you weaseled.”
“I don’t think I weaseled”
“You didn’t tell me what your confidence
was sir, you told me how you determined
it, what was it?”
“He says” 100 percent” – the engineers’
jaws drop, my jaws drop; I look at him,
everybody looks at him – “uh, uh, minus
epsilon”
“So, I say, “Well, yes; that’s fine. Now the
only problem is, WHAT IS EPSILON?”
“He said “10-5.” It was the same number
that Mr. Ulian had told us about: 1 in
100,000.”
I showed Mr. Lovingood the other
answers and said, “You’ll be interested to
know that there is a difference between
engineers and management here – a
factor of more than 300.”
He says, “Sir, I’ll be glad to send you the
document that contains this estimate, so
you can understand it.”

6
(Richard Feynman, “What Do You Care What Other
People Think”: Further Adventures of a Curious
Character 181-83 (1988)) (emphasis added) (App. 9798)
Dr. Feynman had asked a very specific engineering
question to these men: “What do you think is the
probability that a flight would be uncompleted due to
a failure in this (main) engine?” The question was
limited to the main engine. It only asked the
probability that a failure of this main engine would
cause a flight to be “uncompleted” which would include
aborting this manned flight at any point (before launch
or thereafter) and allowing it to return to earth with no
damages using alternative engines. The answer to that
specific question had, in fact, been determined by the
engineers at Marshall to be 1 in 100,000 because this
was a manned flight with alternative engine systems
and redundancies. In fact, Dr. Feynman admitted in
his book that he was wrong to initially believe the
problem with the Challenger was its “main engine” and
that the evidence showed it had shut down and worked
perfectly on the occasion of this disaster and had
nothing to do with the Challenger tragedy. (App. 100.
Dr. Lovingood did give him the promised official report
showing the calculation he recited. The explosion was
ultimately shown to have been caused by the exposure
of O-rings to low temperature at launch that became
brittle and failed – not a part of the main engine.
In the movie, the scene is the actual Commission
hearing and Dr. Lovingood is shown being given the
oath.

7
Dr. Feynman asks a totally different and fabricated
question from that set forth above as taken from the
book:
“I have a question. Can you remind me
what NASA calculates the probability of
shuttle failure to be? Failure meaning the
loss of the vehicle and the deaths of the
engine crew? Dr. Lovingood?
LOVINGOOD: “Certainly. Uh, that would
be – one in ten to the power of five.”
FEYNMAN: “Really, would you explain
that?
LOVINGOOD: “Yes, that the probability
of mission success is one hundred percent.
Minus epsilon.”
FEYNMAN: “Epsilon, that’s a pretty
fancy word.
Well, let’s put all that you’ve said there
into English. So that’s um, that’s one
failure in every 100,000 flights. So you
claim that the shuttle would fly every day
for 300 years before there would be a
single failure. That’s crazy, I mean how
could you ever even test that?
LOVINGOOD: “NASA arrived at that
figure because it was a manned flight.”
FEYNMAN: “Because there were people
on board. But that’s not a scientific
calculation; that’s – that’s – a wish. And

8
interesting that the figure is very
different from that of NASA’s own
engineers. Based on their direct
experience and observation of many
known component problems, some of
NASA’s engineers calculate the
probability of success as only 99.4
percent. In other words, that’s roughly
one flight in every 200 will fail.”
SALLY RIDE (astronaut and commission
member): “One in two hundred. Wow. Not
what the astronauts are aware of – that’s
a potential disaster every three and a half
years.”
(App. 5-6).
The question has changed from the calculation of
specific main engine failure causing an “uncompleted
mission” to NASA’s calculation of the probability of any
failure “of many known component problems . . .
meaning the loss of the vehicle and the deaths of the
entire crew.” The film took the 1 in 100,000 calculation
that NASA had made for the probability of engine
failure resulting in an “uncompleted mission” and
made it a calculation presented by Dr. Lovingood as
being the probability of a disaster and death of the
entire crew. It is undisputed that no such calculation
had ever been made by NASA. It is undisputed that no
engineers at NASA ever said it was really 1 in 200. It
is undisputed that NASA management had never
ignored or disagreed with its own engineers on this
fabricated and dramatic calculation because it had
never taken place. This would have been false and

9
perjurious testimony if Dr. Lovingood had actually said
under oath what he is shown to be testifying under
oath. Discovery’s own expert witness acknowledged
this in his deposition:
“Q.

Well, it is obvious the question was
changed from main engine failure
to total loss of mission and death of
the entire crew, wasn’t it?

A.

There is no question the wording
was changed.

“Q.

****
Well, let us look at the
circumstances. The scene that we
are about in this case was Dr.
Lovingood testifying under oath
before the Commission, depicts his
testifying under oath, doesn’t it?

A.

It does.

Q.

It puts words in his mouth under
oath, doesn’t it?

A.

It does.

Q.

That testimony, in fact, never
occurred, did it?

A.

That testimony did not occur. That
distinction is important in my
opinion.”

Q.

****
Did anyone from NASA ever make
a report or statement that they had

10
calculated the probability of
shuttle mission failure with loss of
vehicle and death to the entire
crew to be 1 in 100,000?
A.

Not to my knowledge.

Q.

Yet the movie shows Dr. Lovingood
testifying to that, doesn’t it?

A.

Yes, it does.”

(Defendant’s expert, James G. Hirsch) (App. 108-10).
This fabricated transposition of sworn testimony
was successfully used to portray a non-existent cover
up by the management of NASA and Dr. Lovingood
that was at dramatic, exponential odds with its own
engineers. This demonization was obviously felt to be
necessary to give a nefarious depiction that would
entertain the audience and feed their “cynicism” about
managers such as Dr. Lovingood at the expense of the
truth. Indeed, evidence produced in discovery showed
a joint plan by Discovery and BBC to show NASA was
“covering up their actions” and the focus of the movie
would be “building a feeling of malevolent intent that
we gradually reveal is aimed at suppression of the
truth at all costs.” (App. 120). The District Court and
the Eleventh Circuit allowed the public official status
of Dr. Lovingood to give a shield to Discovery for such
efforts under the principle of requiring clear and
convincing proof of actual malice. It is this unsettling
and unjust construction of defamation law that is the
focus of this Petition.

11
Discovery has taken the position that it passively
relied upon BBC for accuracy and truth in the film.
However, Discovery voluntarily assumed duties for the
broadcast in the United States through its joint
purpose contract with BBC. This contract placed
obligations upon Discovery not to specifically authorize
or use the film if it were defamatory or invaded the
privacy of any person. Discovery’s Executive Producer
testified that it was his obligation to “double check,
remind them (BBC), look for hints that they might not
be doing their job . . . .” (App. 105-06). Ten months
before the film was broadcast in the United States, the
Executive Producer wrote an email to BBC after
watching their version of the film and asking to see
their actual notes on research supporting the script.
The email stated: “I feel like a backseat driver without
a map.” (App. 106). He never received a response to his
request for these notes and never followed up to see
this requested “map.” Moreover, he actually wrote BBC
to “be very careful not to fictionalize an accusation
against NASA” (App. 90, 107) but never read any
portion of the official transcript of the Commission
hearing to see if this had been fictionalized. In
retrospect, he admitted there was a “disconnect”
between the scenes in Dr. Feynman’s book and the
scenes that were created for the movie. He agreed that
the difference in questions that Dr. Feynman asked of
the engineers at NASA regarding probability failure of
the main engine causing a mission to be “uncompleted”
were not “interchangeable” with the question in the
film of calculation on the probability of any component
failure and resulting loss of the vehicle and death of the
entire crew (App. 132, 134). This scene was a clear false
indictment of the truthfulness and carelessness of Dr.

12
Lovingood and his NASA management colleagues. This
is precisely what Discovery and BBC desired and
planned by “building a feeling of malevolent intent that
we gradually reveal is aimed at suppression of the
truth at all costs.” The irony is that Discovery created
this fictionalized version of sworn testimony to
suppress the sworn truth not Dr. Lovingood and his
NASA management colleagues. Dr. Lovingood was the
face and name they chose to vilify as the poster boy of
this falsehood for “dramatic effect.”
REASONS FOR GRANTING THE PETITION
I.

THE
“WITNESS”
IDENTITY
SUPPLANTS A “PUBLIC OFFICIAL”
IDENTITY FOR PURPOSES OF
DEFAMATION
ACTIONS
FABRICATING FALSE TESTIMONY

This petition should be granted because the law of
libel regarding public officials who are vilified by the
creation of their having spoken false, sworn testimony
must be clarified to relieve them of the
obligation/burden of proving actual malice by clear and
convincing evidence. A public official who is testifying
under oath is simply a witness like any other citizen
providing sworn testimony and this recognition must
afford him/her protection from publication of false
testimony that was never given. This Court has
recognized the clear distinction between a public
official pursuing his/her normal duties as opposed to
testifying under oath. In Lane v. Franks, 573 U.S. 228,
134 S.Ct. 2369, 189 L.Ed. 312 (2014), this Court stated:

13
“Truthful testimony under oath by a
public employee outside the scope of his
ordinary job duties is speech as a citizen
for First Amendment purposes. That is so
even when the testimony relates to his
public employment or concerns
information learned during that
employment.”
****
“Sworn testimony in judicial proceedings
is a quintessential example of speech as a
citizen for a simple reason: Anyone who
testifies in court bears an obligation to
the court and society at large, to tell the
truth. (Citations omitted.) When the
person testifying is a public employee, he
may bear separate obligations to his
employer - for example, an obligation not
to show up to court dressed in an
unprofessional manner. But any such
obligations as an employee are distinct
and independent from the obligation, as a
citizen, to speak the truth. That
independent obligation renders sworn
testimony speech as a citizen and sets it
apart from speech made purely in the
capacity of an employee.”
****
“Unlike speech in other contexts,
testimony under oath has the formality
and gravity necessary to remind the

14
witness that his or her statements will be
the basis for official government action,
action that often affects the rights and
liberties of others.”
(573 U.S. at 238-39, 241) (Emphasis added). (See also,
United States v. Alvarez, 567 U.S. 709, 732 (2012)).
Lane involved a claim for retaliatory termination for
testimony given by the employee. The Fifth Circuit
explained the tension involved where a public employee
must give sworn testimony on a matter of public
concern:
“When an employee testifies before an
official government adjudicatory or fact
finding body he speaks in a context that is
inherently of public concern. Our judicial
system is designed to resolve disputes, to
right wrongs. We encourage uninhibited
testimony, under penalty of perjury, in an
attempt to arrive at the truth. We would
compromise the integrity of the judicial
process if we tolerated state retaliation
for testimony that is damaging to the
state. If employers were free to retaliate
against employees who provide truthful,
but damaging testimony about their
employers, they would force the
employees to make a difficult choice.
Employees either could testify truthfully
and lose their jobs or could lie to the
tribunal and protect their job
security . . . .”

15
Johnston v. Harris County Flood Control District, 869
F.2d 1565, 1577-78 (5th Cir. 1989).
In a similar vein, this Court has recognized how the
oath and sworn testimony of a prosecutor can affect her
immunity privileges: “Even when the person who
makes the constitutionally required “oath or
affirmation” is a lawyer, the only function that she
performs in giving sworn testimony is that of a
witness.” Kalina v. Fletcher, 522 U.S. 118, 131 (1997)
[emphasis added]. The Court went on to explain that in
determining immunity, “we examine the nature of the
function performed, not the identity of the actor who
performed it.” (Id. at 127) [emphasis added].
The law protecting the sanctity of sworn testimony
for public officials in retaliation claims should be no
different when such testimony is the subject of a
defamation claim where the sworn testimony is
falsified in a publication that vilifies the witness, on a
matter of inherent public concern. Your petitioner
expressly raised this concern in pleadings before the
trial court:
“His (Lovingood) day to day job is not
under oath but can be under the
opinionated scrutiny of the media or the
public at large in an open ended,
constitutionally protected expression. The
oath and his sworn testimony is elevated
outside the performance of his duties of
employment/office. He is now sworn to an
oath to tell the truth on any matters
examined. This makes him an ordinary
citizen in this forum regardless of his

16
status as an official or public figure. He is
now simply a WITNESS. No witness can
be exposed to having fabricated/fake
testimony, that did not take place, put in
his mouth when it did not occur in the
actual transcript. There are no levels of
status that alter that indisputable duty to
any citizen testifying under oath.”
(App. 129-30) (Emphasis added).
On appeal, the Eleventh Circuit rejected this
argument that Dr. Lovingood’s status as a public
official was altered to that of a simple citizen witness
when it came to the fabrication of his sworn testimony.
The Court stated:
“Lovingood invites us to create an
exception to the well-established
New York Times standard for situations
involving the fictionalization of sworn
testimony. He urges us, in view of the
sanctity of the testimonial oath and its
centrality to our legal system, to find that
the ‘actual malice’ standard articulated by
the Supreme Court does not apply in the
context of depictions of perjury.
We are not free to accept Lovingood’s
invitation. As the Supreme Court has
instructed, “If a precedent of this Court
has direct application in a case . . . the
Court of Appeals should follow the case
which directly controls, leaving to this
Court the prerogative of overruling its

17
own decision.” Rodriguez de Quijas v.
Shearson/Am. Express, Inc., 490 U.S.
477, 494 (1989). And indeed that Court
has steadfastly refused to create new
exceptions in defamation law for the last
fifty years.”
(App. 11).
The Court of Appeals noted that the law of Alabama
generally allows a plaintiff to recover damages for
defamation against a publisher who negligently
publishes a false and defamatory statement about the
plaintiff. Nelson v. Lapeyrouse Grain Corp, 534 So.2d
1085, 1091 (Ala. 1988). However, when the plaintiff is
a public official, that plaintiff must overcome the First
Amendment by proving “that a false statement relating
to his official conduct was made with actual malice –
that is with knowledge that it was false or with
reckless disregard of whether it was false or not. N.Y.
Times Co. v. Sullivan, 376 U.S. 254, 279-80 (1964)
(11th Cir. Opinion at p. 9-10).
Rule 10 of this Court provides for the granting of
Petition for Certiorari when “a United States Court of
Appeals has decided an important question of federal
law that has not been, but should be, settled by this
Court . . .” This Court has also recognized that it plays
an important role in “clarifying rights.” Camreta v.
Greene, 563 U.S. 692, 708, 131 S.Ct. 2020, 179 L.Ed. 2d
1118 (2011). This case involves the reluctance of the
Court of Appeals to recognize the important
clarification that needs to be made regarding falsifying
sworn testimony by a public official on a matter of
public concern that defames and vilifies that person. If

18
such a clarification is not recognized by this Court on
this narrow but definite scenario any witness who
happens to also be a public official will be threatened to
be open for false depictions of his/her sworn testimony
for any purpose desired by the media. Such a concept
is irreconcilable with our system of law and presents a
clear and present danger to both the sanctity of the
oath and the character of that citizen testifying under
that burden for expressing the truth. Any citizen
witness under oath, whether private individual or
public official, should be protected from defamation
involving fabrication of sworn testimony under the
same standard of the state law governing libel actions.
The oath is the leveling factor that recognizes no
distinction or class of the witness as public official or
private citizen. As this Court stated in Kalina v.
Fletcher, 522 U.S. 118 (1997), the focus should be on
the function of the witness’s oath “not the identity of
the actor.” (Id. at 127). The identity of a public official
is not the controlling factor, it is the sanctity of the
oath for any witness.
Indeed, public officials who are put under oath to
testify on matters of public concern are the most
vulnerable to falsified vilification by creation of
fabricated and false testimony. As Justice Thomas
wrote in his concurring opinion in McKee v. Cosby, ___
U.S. ___, 139 S.Ct. 675, 203 L.Ed. 2d 247 (2019): “. . .
the common law deemed libels against public figures to
be, if anything, more serious and injurious than when
spoken of a private man.” (Id. at 679) . . . “We should
reconsider our jurisprudence in this area.” (Id. at 682).

19
Petitioner does not seek any wholesale or expansive
reconsideration of the law regarding the burden of
proof for public officials in defamation actions.
However, the specific issue regarding the false
depiction of actual sworn testimony cries out for the
relief sought by your Petitioner to recognize that any
witness under oath who is defamed or vilified by
creating false testimony which was never given need
not be required to present clear and convincing
evidence of actual malice.
The Court has stated that “The First Amendment
requires that we protect some falsehood in order to
protect speech that matters.” Gertz v. Robert Welch,
418 U.S. 323, 341 (1974) [emphasis added]. The Gertz
Court recognized, however, that the need to avoid selfcensorship by the news media was not the only societal
issue because “absolute protection for the
communications media requires a total sacrifice of the
competing value served by the laws of defamation” and
this Court was unwilling to go to that extreme. (Id. at
341). Sworn testimony is required to be treated
differently than other speech. Witnesses and lawyers
have always been absolutely immune from damages
liability at common law for making false or defamatory
statements in judicial proceedings. Burns v. Reed, 500
U.S. 478, 489-90 (1991). This immunity respected no
disparate identity of the actor testifying:
“The common law immunity that
protected witnesses as well as other
participants in the judicial process drew
no distinction between public officials and
private citizens. (citations omitted) The

20
general purposes underlying witness
immunity at common law applied equally
to official and private witnesses. Both
types of witness took the stand and
testified under oath in response to the
questions of counsel.”
Briscoe v. Lahue, 460 U.S. 325, fn.15 (1983).
Once again, we see that this Court has recognized
sworn testimony given under oath to be the focus of
leveling public officials with private citizens and
becoming simply WITNESSES. This leveling effect
should, under this scenario, remove the elevated,
enhanced burden of proving actual malice by a public
official who has his sworn testimony falsified and
made-up for entertainment purposes. This is not
“speech that matters.” It is actually creating perjury in
the fabrication. This activity should not be the subject
of special protection of the publisher. If anything, such
cavalier treatment of sworn testimony should be the
subject of more strict scrutiny.
II.

WILLFUL
BLINDNESS S HOULD
APPLY TO DEFAMATION ACTIONS
REQUIRING ACTUAL MALICE

This case also involves the issue of whether willful
blindness would apply to the burden of proof for actual
malice if that standard were retained. The evidence
presented in the introduction to this petition clearly
shows willful blindness by Discovery in not fulfilling its
obligation to “double check” The BBC in its research –
which was shown to have been avoided when the
producer wrote that he felt “like a back seat driver with

21
no map” and failed to insist on getting the actual
research notes he had requested from The BBC. The
Eleventh Circuit refused to address this issue and
stated:
“The doctrine of willful blindness which
provides culpability equivalent to actual
knowledge is well established in criminal
law. Global-Tech Appliances, Inc. v. SEB
S.A., 563 U.S. 754, 766 (2011). But
neither the Supreme Court nor our
Circuit has ever applied that doctrine in
the civil context of defamation, and
Lovingood cites no case doing so.”
(App. 20).
Petitioner believes that this issue should also be
considered as a reason for granting this Petition to
clarify the law in the specific context of this unique
case. Willful blindness should be capable of being
considered for actual malice. Willful blindness is the
legal equivalent of “recklessness.” This Court
recognized “recklessness” as being proof of actual
malice in N.Y. Times Co. v. Sullivan, 376 U.S. 254
(1964) where it stated:
“We think the evidence against the Times
supports at most a finding of negligence
in failing to discover the misstatements,
and is constitutionally insufficient to
show the recklessness that is required for
a finding of actual malice.”
****

22
“. . . with actual knowledge that it was
false or with reckless disregard of
whether it was false or not.”
****
“Indeed, as Smith recognizes, this Court
has used the very term ‘actual malice’ in
the defamation context to refer to a
recklessness standard.”
376 U.S. at 280, 288. (Emphasis added); Smith v.
Wade, 461 U.S. 30, F.N.6 (1983) (Emphasis added).
While this Court adopted the use of willful
blindness in civil actions in Global Tech Appliances,
Inc. v. SEB S.A., 563 U.S. 754 (2011), that was an
action governed by statutory law regarding patent
infringement. Therefore, this Court’s comments in that
opinion stating that the statutory context would
require more than recklessness and negligence would
not apply to common law actions for defamation.
Indeed, this Court has embraced “recklessness” as
being sufficient for proving actual malice in this
context as quoted above. Moreover, this Court has
described willful blindness as: “That risk must be of
such a nature and degree that, considering the nature
and purpose of the actor’s conduct and the
circumstances known to him, its disregard involves a
gross deviation from the standard of conduct that a
law-abiding person would observe in the actor’s
situation.” Bullock v. Bank Champaign, N.A., 569 U.S.
267, 274 (2013) (Quoting from the Model Penal Code)
[emphasis in the original]. If that definition is good

23
enough for criminal law, it should certainly apply in
this context.
The evidence of willful blindness was shown in this
case by the Executive Producer acknowledging he had
sent an email to the BBC to get their research notes
supporting the accuracy of the script. “I feel like a
backseat driver without a map.” (App. 106) He knew he
had an obligation to “double check” the BBC but never
received the requested notes and never followed up.
This is the same executive who had earlier informed
BBC “be very careful not to fictionalize an accusation
against NASA” (App. 90, 107) He never read any part
of the Commission hearing transcript and admitted the
movie had a “disconnect” from reality in the scene at
issue. The movie clearly did fictionalize an accusation
against Dr. Lovingood and his NASA management
colleagues as ignoring calculations of loss of the crew
that never took place. Defendants knew of this danger
and recklessly avoided that knowledge of falsity by
willful blindness.

24
III.

SEEKING TO INFLUENCE THE
COURT OF PUBLIC OPINION BY
FALSELY CREATING SWORN
TESTIMONY THAT IS ABSENT
FROM THE READILY AVAILABLE
OFFICIAL TRANSCRIPT IS
INCOMPATIBLE WITH ENHANCED
FIRST AMENDMENT PROTECTION
INVOLVING A PUBLIC OFFICIAL
WITNESS

The law regarding defamation of a public figure or
public official has been well settled by N.Y. Times v.
Sullivan and its progeny. Who could have ever
envisioned that a publisher of a movie would seek to
falsify and fabricate sworn testimony by a public
official on a disaster like the Challenger explosion to
create a dramatic effect for its audience and to plan in
advance an effort towards “building a feeling of
malevolent intent that we gradually reveal is aimed at
suppression of the truth at all costs.” Dr. Lovingood
was the face and voice of this created falsehood in
testimony to build this “malevolent intent” on the part
of himself and his NASA management colleagues. The
bottom line is this: Is the media or any publisher free
to alter/falsify a public official’s sworn testimony for
any purpose – entertainment, drama or critical review
– under the cloak of the First Amendment? This Court
has previously stated: “There is no constitutional value
in false statements of fact.” Gertz v. Robert Welch, Inc.,
418 U.S. 323, 340 (1974). “Calculated falsehood falls
into that class of utterances which are no essential part
of any exposition of ideas and are of such slight social
value as a step to the truth that any benefit that may

25
be derived from them is clearly outweighed by the
social interest in order and morality.” Garrison v.
Louisiana, 379 U.S. 64, 75 (1964). The weight of that
value comparison is even more drastic where sworn
testimony is falsified to vilify a public official to make
him appear (for entertainment purposes) a malevolent
suppressor of truth when, in fact, he testified on the
record truthfully. It puts perjury in the mouth of the
witness. If an exception to the “actual malice” standard
is not made for all witnesses under oath (public official
or private) the sanctity of the oath, the purpose and
goal of our legal system and the vulnerability of such a
public official may be exploited and damaged with
virtual impunity to a degree never envisioned or
intended by the First Amendment. This is not a case
involving the mixing of opinion and fact or altering
notes from an informal interview. It is the intentional
creation of specifically quoted sworn testimony given in
a proceeding examining an issue of profound public
concern that never took place. A media publisher
cannot be allowed to create false testimony in a court
or adjudicatory body so that he can fabricate it to
influence the different and distinct court of public
opinion — at the expense of altering what actually
transpired in sworn testimony. This Court has held
that a criminal defense attorney may use “lawful
strategies . . . including an attempt to demonstrate in
the court of public opinion that his client does not
deserve to be tried.” Gentile v. State Bar of Nevada, 501
U.S. 1030, 1043 (1991). There should not be any
allowable temptation for a media outlet to use the
unlawful manipulation and fabrication of
sworn/recorded testimony as a means to influence or
excite the court of public opinion (audience) to perceive

26
the public official as a villain where the means used are
false and defamatory. Any such indulgence surrenders
the sanctity and integrity of the oath in the legal
system to the whims of any publisher who wishes to
transport his false depictions out into the court of
public opinion. This is anathema to the First
Amendment not expression to be protected by it. As the
Court noted in Skakel v. Grace, 5 F.Supp.3d 199 (D.C.
Conn. 2014):
“In a defamation case the forum is the
court of public opinion, that is, the focal
point is public sentiment and not a legal
principle.”
(Id. at 213).
What happens in Court, under oath, does not stay
in Court. It is open to the public. However, what
happens in Court under oath, cannot be allowed to be
falsely altered in an effort to entertain or dramatize
false images of the witness who has performed his civic
duty by taking the oath. Once that witness has
properly performed this duty under oath, the legal
system and courts must perform their duty to protect
that witness from having his testimony contaminated
or corrupted for entertainment, attempts to induce
perjury prior to or during testimony are criminal.
Changing testimony after it is honestly and dutifully
given is no less reprehensible. The civil law on
defamation must be clarified to address this conduct to
preserve and respect the sanctity of the oath for any
and all witnesses without classification.

27
This case involves the testimony given under oath
by Dr. Judson Lovingood at the Presidential
Commission hearing regarding the space shuttle
Challenger explosion disaster in 1986. There is no
dispute that while Petitioner did, in fact, testify under
oath before the Commission, the Defendants fabricated
false and incriminating testimony put in the mouth of
Petitioner that never took place. Petitioner was shown
in a movie to be giving sworn testimony that was false,
defamatory and virtually the opposite of his actual and
recorded testimony in an effort to convey an admitted
plan of “building a feeling of malevolent intent that we
gradually reveal is aimed at suppression of the truth at
all costs” to show that Petitioner and his NASA
management colleagues were “covering up their
actions.” The essential and important issue raised by
this unique case is whether this Court should recognize
that a public official testifying under oath before an
adjudicatory body is simply a witness and that all
sworn witnesses, public official or private, must be
subject to the same standard in defamation actions
where a Defendant published fabricated and false
testimony that never took place. The oath is a burden
of the highest moral value that is draped over the
testimony of every witness – public or private – and its
sanctity/integrity does not change with the identity of
the witness. Sworn testimony “has greater value
because of the witness’s oath and the obligations and
penalties attendant to it.” United States v. Dunnigan,
507 U.S. 87, 97 (1993). This consistent function of the
oath should also be consistently applied in defamation
cases where sworn, recorded testimony has been
fabricated and manipulated for entertainment

28
purposes to harm any witness, public or private, under
traditional state libel law.
CONCLUSION
The petition for a writ of certiorari should be
granted so that this Court may address the clarification
of the law of defamation presented by this unique and
important case.
Respectfully submitted,
Stephen D. Heninger
Counsel of Record
HENINGER GARRISON
DAVIS, LLC
2224 1st Avenue North
Birmingham, Alabama 35203
(205) 326-3336
steve@hgdlawfirm.com
Counsel for Petitioner

